      DEPARTMENT OF HEALTH & HUMAN SERVICES                            Office of Inspector General


                                                                     Washington, D.C. 20201




September 14, 2010

TO:           Donald M. Berwick, M.D.
              Administrator
              Centers for Medicare & Medicaid Services

              /Joe J. Green/ for
FROM:         George M. Reeb
              Acting Deputy Inspector General for Audit Services


SUBJECT:      Review of Michigan’s Reporting Fund Recoveries for State Medicaid Programs
              on the Form CMS-64 for Federal Fiscal Years 2008 and 2009 (A-05-09-00103)


Attached, for your information, is an advance copy of our final report on Michigan’s reporting
fund recoveries for State Medicaid programs on the Form CMS-64 for Federal fiscal years 2008
and 2009. We will issue this report to the Michigan Department of Community Health within 5
business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Robert A. Vito, Acting Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through email at Robert.Vito@oig.hhs.gov
or James C. Cox, Regional Inspector General for Audit Services, Region V, at (312) 353-2621 or
through email at James.Cox@oig.hhs.gov. Please refer to report number A-05-09-00103.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General


                                                                          Office of Audit Services, Region V
                                                                          233 North Michigan Avenue
                                                                          Suite 1360
                                                                          Chicago, IL 60601

September 17, 2010

Report Number: A-05-09-00103

Ms. Janet Olszewski
Director
Michigan Department of Community Health
201 Townsend Street
Lansing, MI 48913

Dear Ms. Olszewski:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Michigan’s Reporting Fund Recoveries for State
Medicaid Programs on the Form CMS-64 for Federal Fiscal Years 2008 and 2009. We will
forward a copy of this report to the HHS action official noted on the following page for review
and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Lynn Barker, Audit Manager, at (317) 226-7833, extension 21, or through email at
Lynn.Barker@oig.hhs.gov. Please refer to report number A-05-09-00103 in all correspondence.

                                             Sincerely,



                                             /James C. Cox/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Janet Olszewski


cc:
Ms. Pam Myers
Audit Liaison
Michigan Department of Community Health


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
 Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




      REVIEW OF MICHIGAN’S
REPORTING FUND RECOVERIES FOR
    STATE MEDICAID PROGRAMS
ON THE FORM CMS-64 FOR FEDERAL
   FISCAL YEARS 2008 AND 2009




                       Daniel R. Levinson
                        Inspector General

                        September 2010
                         A-05-09-00103
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to certain low-income individuals and individuals with disabilities. The
Federal and State Governments jointly fund and administer the Medicaid program. At the
Federal level, the Centers for Medicare & Medicaid Services (CMS) administers the program.
Each State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements.

The State Medicaid agency uses a statewide surveillance and utilization control program to
safeguard against unnecessary or inappropriate use of Medicaid services and excess payments.
In Michigan, the Department of Community Health (State agency) administers the Medicaid
program. The State agency, through the Medicaid Integrity Program section, Hospital Health
Plan Reimbursement division, and Long Term Care division, conducted audits of Medicaid
providers. In addition, the State agency contracted with Michigan Peer Review Organization and
ACS Heritage to conduct audits of Medicaid providers. The Michigan Office of the Auditor
General (OAG) and the Medicaid Fraud Control Unit (MFCU) conducted audits and
investigations, respectively, of Medicaid providers. When any of these organizations identified
overpayments, the State agency sent letters to the provider that (1) identified the overpayment
amounts and (2) directed the providers to send payments to the State agency or notified providers
of future payment offsets. The OAG sent notice to the State agency of overpayments identified
through its federally required audits. Providers were notified of fraud and abuse-related
overpayment amounts determined through settlements resulting from MFCU investigations.

Section 1903(d)(2) of the Act requires the State to refund the Federal share of a Medicaid
overpayment. Implementing regulations (42 CFR § 433.312) require the State Medicaid agency
to refund the Federal share of an overpayment to a provider at the end of the 60-day period
following the date of discovery, whether or not the State Medicaid agency has recovered the
overpayment. The date of discovery for situations other than fraud or abuse is the date that a
provider was first notified in writing of an overpayment and the specified dollar amount subject
to recovery (42 CFR § 433.316(c)). For provider overpayments resulting from fraud or abuse,
discovery occurs on the date of the State’s final written notice of the overpayment determination
(42 CFR § 433.316(d)). Federal regulations (42 CFR § 433.304) define an overpayment as
“... the amount paid by a Medicaid agency to a provider in excess of the amount that is allowable
for the services furnished under section 1902 of the Act and which is required to be refunded
under section 1903 of the Act.” Because the Quarterly Medicaid Statement of Expenditures for
the Medical Assistance Program, Form CMS-64 (CMS-64), is due on a quarterly basis, the CMS
State Medicaid Manual requires the Federal share of the overpayments be reported no later than
the quarter in which the 60-day period ends.




                                                i
OBJECTIVE

Our objective was to determine whether Medicaid overpayments were reported on the CMS-64
in accordance with Federal regulations.

SUMMARY OF FINDINGS

The State agency did not report all Medicaid overpayments in accordance with Federal
requirements. Of the 134 overpayments we reviewed, 15 were partially reported or not reported
on the CMS-64. The remaining 119 were reported correctly or were not required to be reported.
The State agency also did not report all Medicaid provider overpayments within the 60-day time
requirement. For Federal fiscal years 2008 and 2009, we estimated that the State agency did not
report Medicaid overpayments totaling $2,340,182 ($1,320,131 Federal share) in accordance
with Federal requirements.

The State agency did not properly report these overpayments because it had not developed and
implemented internal controls to ensure that overpayments were reported on the CMS-64.

RECOMMENDATIONS

We recommend that the State agency:

   •   include unreported Medicaid overpayments of $2,340,182 on the CMS-64 and refund
       $1,320,131 to the Federal Government and

   •   develop and implement internal controls to correctly report and refund the Federal share
       of identified Medicaid overpayments on the CMS-64.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our recommendations
and said that it had refunded part of the overpayments and would refund additional overpayments
at a later time. The State agency’s comments are included in their entirety as Appendix C.




                                               ii
                                                  TABLE OF CONTENTS
                                                                                                                                      Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              Medicaid Program ................................................................................................1
              Federal Requirements for Medicaid Overpayments ...........................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................2
               Objective ..............................................................................................................2
               Scope ....................................................................................................................2
               Methodology ........................................................................................................3

FINDINGS AND RECOMMENDATIONS ............................................................................4

          OVERPAYMENTS NOT REPORTED ..........................................................................4

          OVERPAYMENTS NOT REPORTED TIMELY ..........................................................5

          POTENTIALLY HIGHER INTEREST EXPENSE........................................................5

          INTERNAL CONTROLS NOT IMPLEMENTED.........................................................6

          RECOMMENDATIONS .................................................................................................6

          STATE AGENCY COMMENTS ....................................................................................6

OTHER MATTERS ..................................................................................................................6

APPENDIXES

          A: SAMPLING METHODOLOGY

          B: SAMPLE RESULTS AND ESTIMATES

          C: STATE AGENCY COMMENTS




                                                                    iii
                                      INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with Federal requirements.

The Federal Government pays its share (Federal share) of State Medicaid expenditures according
to a defined formula. To receive Federal reimbursement, State Medicaid agencies are required to
report expenditures on the Quarterly Medicaid Statement of Expenditures for the Medical
Assistance Program, Form CMS-64 (CMS-64).

The State Medicaid agency implements a statewide surveillance and utilization control program
to safeguard against unnecessary or inappropriate use of Medicaid services and excess payments.
In Michigan, the Department of Community Health (State agency) administered the Medicaid
program. The State agency, through the Medicaid Integrity Program section (MIP), Hospital
Health Plan Reimbursement division (HHPRD), and Long Term Care division (LTC), conducted
audits of Medicaid providers. In addition, the State agency contracted with Michigan Peer
Review Organization (MPRO) and ACS Heritage to conduct surveillance and utilization review
audits of Medicaid providers. The Michigan Office of the Auditor General (OAG) conducted
federally required audits and provided overpayment findings to the State agency. The State
Medicaid Fraud Control Unit (MFCU) obtained settlements from Medicaid providers in
situations related to fraud or abuse investigations. All together, the OAG, MIP, HHPRD, LTC,
MFCU, and MPRO and ACS Heritage issued 2,119 audit reports, settlement agreements, and
overpayment letters to the State agency or Medicaid providers on behalf of the State agency.
The reports, agreements, and letters identified the amounts of the overpayments. In addition, the
agreements and letters directed the providers to send payment to the State agency or notified
providers of future payment offsets.

Federal Requirements for Medicaid Overpayments

The Federal Government does not participate financially in Medicaid payments for excessive or
erroneous expenditures. Section 1903(d)(2)(A) of the Act requires the Secretary of Health &
Human Services to recover the amount of a Medicaid overpayment. Federal regulations
(42 CFR § 433.304) define an overpayment as “… the amount paid by a Medicaid agency to a
provider in excess of the amount that is allowable for services furnished under section 1902 of
the Act and which is required to be refunded under section 1903 of the Act.” A State has 60
days from the discovery of a Medicaid overpayment to a provider to recover or attempt to
recover the overpayment before the Federal share of the overpayment must be refunded to


                                                1
CMS. 1 Section 1903(d)(2)(C) of the Act and Federal regulations at 42 CFR part 433, subpart F,
require a State to refund the Federal share of overpayments at the end of the 60-day period
following discovery whether or not the State has recovered the overpayment from the provider. 2
Pursuant to 42 CFR § 433.316(c), an overpayment that is not a result of fraud or abuse is
discovered on the earliest date:

        (1) ... on which any Medicaid agency official or other State official first notifies a
        provider in writing of an overpayment and specifies a dollar amount that is
        subject to recovery; (2) ... on which a provider initially acknowledges a specific
        overpaid amount in writing to the medicaid agency; or (3) ... on which any State
        official or fiscal agent of the State initiates a formal action to recoup a specific
        overpaid amount from a provider without having first notified the provider in
        writing.

Pursuant to 42 CFR § 433.316(d), an overpayment resulting from fraud or abuse is discovered on
the date of the final written notice of the State’s overpayment determination that a Medicaid
agency official or other State official sends to the provider. For overpayments identified through
Federal reviews, 42 CFR § 433.316(e) provides that an overpayment is discovered when the
Federal official first notifies the State in writing of the overpayment and the dollar amount
subject to recovery.

In addition, Federal regulations (42 CFR § 433.320) require that the State refund the Federal
share of an overpayment on its quarterly Form CMS-64. Provider overpayments must be
credited on the CMS-64 submitted for the quarter in which the 60-day period following
discovery ends.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Medicaid overpayments were reported on the CMS-64
in accordance with Federal regulations.

Scope

Our review covered Medicaid provider overpayments that were identified in audit reports,
settlement agreements, and overpayment letters issued to providers that should have been
reported on the CMS-64 during Federal fiscal years (FY) 2008 and 2009. We reviewed 134 of
the 1,624 identified overpayments totaling $279,218,229. The identified audit reports, settlement

1
  Effective March 23, 2010, section 6506 of the Patient Protection and Affordable Care Act (P.L. No. 111-148)
provides an extension period for the collection of overpayments. Except in the case of overpayments due to fraud,
States have up to 1 year from the date of discovery of a Medicaid overpayment to recover, or to attempt to recover,
the overpayment before making an adjustment to refund the Federal share of the overpayment. For overpayments
identified before the effective date, the previous rules on discovery of overpayments remain in effect.
2
  Section 1903(d)(2)(C) and (D) of the Act and Federal regulations (42 CFR § 433.312) do not require the State to
refund the Federal share of uncollectable amounts paid to bankrupt or out-of-business providers.


                                                         2
agreements, and overpayment letters represented overpayments of $1,000 or more for Medicaid
services that were subject to the 60-day rule.

We did not review the overall internal control structure of the State agency. We limited our
internal control review to obtaining an understanding of the identification, collection, and
reporting policies and procedures for Medicaid overpayments.

We performed fieldwork at the State agency offices in Lansing, Michigan, from August 2009
through March 2010.

Methodology

To accomplish our audit objective, we:

   •   reviewed Federal laws, regulations, and other requirements governing Medicaid
       overpayments;

   •   interviewed State agency officials regarding policies and procedures relating to Medicaid
       overpayments subject to the 60-day rule and reporting overpayments on the CMS-64;

   •   identified 1,624 overpayments of $1,000 or more for Medicaid services subject to the
       60-day rule, which totaled $279,218,229;

   •   selected a stratified random sample of 134 overpayments: 100 from the 1,590
       overpayments of $1,000 to $1 million and all 34 overpayments of more than $1 million
       (Appendix A);

   •   established the dates of discovery using the dates that the State agency notified Medicaid
       providers in writing of the overpayments and the dollar amount subject to recovery;

   •   established dates of discovery using the date the OAG sent a copy to the State agency of
       the written audit report of the overpayment amount subject to recovery;

   •   determined the quarter in which the 60-day period following discovery of the
       overpayment ended;

   •   reviewed the CMS-64 to determine whether the Medicaid overpayments were reported
       within the quarter in which the 60-day period following discovery ended;

   •   reviewed the CMS-64 to determine whether Medicaid overpayments were reported
       during any subsequent quarter through December 31, 2009;

   •   determined whether overpayments were processed directly through the Medicaid
       Management Information System and included on other lines of the CMS-64;

   •   determined if providers selected as part of our sample were bankrupt or out of business;


                                                3
    •   estimated, based on the results of our stratified sample, the value of overpayments in the
        sample frame that were not reported during the audit period of FYs 2008 and 2009
        (Appendix B); and

    •   computed the potentially higher interest expense to the Federal Government resulting
        from overpayments and income not reported within the required timeframe using the
        number of days between required reporting dates and the FY ending September 30,
        2009. 3

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                              FINDINGS AND RECOMMENDATIONS

The State agency did not report all Medicaid overpayments in accordance with Federal
requirements. Of the 134 overpayments we reviewed, 15 were partially reported or not reported
on the CMS-64. The remaining 119 were reported correctly or were not required to be reported.
The State agency also did not report all Medicaid provider overpayments within the 60-day time
requirement. For Federal FYs 2008 and 2009, we estimated that the State agency did not report
Medicaid overpayments totaling $2,340,182 ($1,320,131 Federal share) in accordance with
Federal requirements.

Because the State agency did not report all overpayments and was not always timely in reporting,
the Federal Government incurred a potentially higher interest expense. Because the
overpayments were not properly reported on the CMS-64, the Federal Government may have
incurred increased interest expense of $8,655.

The State agency did not properly report these overpayments because it had not developed and
implemented internal controls to ensure that overpayments were reported on the CMS-64.

OVERPAYMENTS NOT REPORTED

Pursuant to 42 CFR § 433.312(a)(2), the State Medicaid agency “... must refund the Federal
share of overpayments at the end of the 60-day period following discovery ... whether or not the
State has recovered the overpayment from the provider.” The regulation provides an exception
only when the State is unable to recover the overpayment amount because the provider is
bankrupt or out of business (42 CFR § 433.318).




3
 We calculated the interest expense using the applicable daily interest rates pursuant to the Cash Management
Improvement Act of 1990, P.L. No. 101-453.


                                                         4
For Federal FYs 2008 and 2009, we estimated that the State agency did not report Medicaid
overpayments totaling $2,340,182 ($1,320,131 Federal share) in accordance with Federal
requirements. Of the 134 overpayments we reviewed, 15 overpayments were partially reported
or not reported on the CMS-64. Specifically:

    •   Of the 100 randomly selected overpayments of $1,000 to $1 million, 4 11 were partially
        reported or not reported on the CMS-64 and totaled $407,685 ($229,994 Federal share).
        Based on the sample results, we estimate that $696,472 ($394,424 Federal share) of the
        Medicaid overpayments between $1,000 and $1 million were not reported on the
        CMS-64.

    •   Of the 34 overpayments that exceeded $1 million, 4 were partially reported or not
        reported on the CMS-64 and totaled $1,643,710 ($925,707 Federal share).

OVERPAYMENTS NOT REPORTED TIMELY

Pursuant to 42 CFR § 433.312(a)(2), the State Medicaid agency “... must refund the Federal
share of overpayments at the end of the 60-day period following discovery ... whether or not the
State has recovered the overpayment from the provider.” For situations other than fraud and
abuse, Federal regulations (42 CFR § 433.316(c)) define the date of discovery as the date that a
provider was first notified in writing of an overpayment and the specified dollar amount subject
to recovery. For overpayments resulting from fraud or abuse, the date of discovery is defined at
42 CFR § 433.316(d) as the date of the final written notice of the overpayment determination
that the State sends to the provider. For overpayments identified through Federal reviews, CMS
will consider the overpayment discovered on the date the Federal official first notifies the State
in writing of the overpayment amount. These regulations do not allow for extending the date.

The State agency did not report all Medicaid provider overpayments in accordance with the
60-day requirement. Of the 134 sampled overpayments, the State agency reported 108
overpayments on the CMS-64, which included 3 overpayments that were only partially reported.
For the 108 overpayments that were reported, 28 overpayments totaling $6,355,037 ($3,868,327
Federal share) were not reported on the CMS-64 at the end of the 60-day period. The untimely
reporting resulted from using the date of the final decision for non-fraud and abuse overpayments
or the date that the State agency collected the overpayment rather than the date of discovery.

POTENTIALLY HIGHER INTEREST EXPENSE

Because the State agency did not report some overpayments and was not timely in reporting
others, the Federal Government did not have the use of these funds. As a result, the Federal
Government potentially incurred an increased interest expense of $8,655. However, we did not
include this Federal interest expense in the amount of the overpayments we recommend that the
State agency should refund.


4
  Five of the selected sample items were not required to be reported on the CMS-64. One overpayment was reduced
to zero in our audit period, one was a voided transaction, and three represented overpayments due to providers.



                                                       5
INTERNAL CONTROLS NOT IMPLEMENTED

The State agency did not develop and implement internal controls to ensure that it correctly
reported on the CMS-64 the Medicaid overpayments identified from State Medicaid audits and
settlements.

RECOMMENDATIONS

We recommend that the State agency:

   •   include unreported Medicaid overpayments of $2,340,182 on the CMS-64 and refund
       $1,320,131 to the Federal Government and

   •   develop and implement internal controls to correctly report and refund the Federal share
       of identified Medicaid overpayments on the CMS-64.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our recommendations
and said that it had refunded part of the overpayments and would refund additional overpayments
at a later time. The State agency’s comments are included in their entirety as Appendix C.

                                     OTHER MATTERS

The State agency did not report Medicaid overpayments from State Medicaid audits on the
correct line of the CMS-64. Of the 108 sampled overpayments that were reported on the
CMS-64, 90 were reported incorrectly. In addition, the State agency did not report Medicaid
overpayments from State Medicaid audits at the correct Federal medical assistance percentages
(FMAP). Currently, the State agency reports Medicaid overpayments at the current quarter
FMAP rate, rather than the FMAP rate current at the time the claim was submitted on the
CMS-64.




                                               6
APPENDIXES
                                                                                  Page 1 of 2


                      APPENDIX A: SAMPLING METHODOLOGY

POPULATION

The population consisted of Medicaid overpayments that should have been reported on the
Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program, Form
CMS-64 (CMS-64) during fiscal years (FY) 2008 and 2009 (October 1, 2007 through September
30, 2009).

SAMPLING FRAME

The Michigan Department of Community Health (State agency) provided lists of Medicaid
provider overpayments identified by the State agency, all its contractors, the Medicaid Fraud
Control Unit, and the Office of the Auditor General for FYs 2008 and 2009. The sampling frame
was limited to overpayments exceeding $1,000.

The sampling frame was an Excel file containing 1,624 Medicaid overpayments with a total
projected recovery of $279,218,229. We separated the sampling frame into two strata.
Stratum 1 consisted of 1,590 Medicaid provider overpayments from $1,000 to $1,000,000, with a
total projected recovery of $102,418,816. Stratum 2 consisted of 34 Medicaid provider
overpayments of more than $1,000,000, with a total projected recovery of $176,799,413.

SAMPLE UNIT

The sample unit was a Medicaid provider overpayment.

SAMPLE DESIGN

We used a stratified random sample, defined as follows:

Stratum 1: 1,590 Medicaid overpayments of $1,000 to $1 million.

Stratum 2: 34 Medicaid provider overpayments of more than $1 million.

SAMPLE SIZE

We selected a random sample of 100 items from the 1,590 Medicaid provider overpayments in
stratum 1 and reviewed all 34 sample items in stratum 2.

SOURCE OF RANDOM NUMBERS

Random numbers were generated by the Department of Health & Human Services, Office of
Inspector General (OIG), Office of Audit Service’s (OAS) RAT-STATS statistical software
package.
                                                                                  Page 2 of 2


ESTIMATION METHODOLOGY

We used the OIG/OAS statistical software to estimate the amount of Medicaid provider
overpayments not properly reported.
                 APPENDIX B: SAMPLE RESULTS AND ESTIMATES

                                      Sample Results

                                                           Number of      Value of
                                                          Overpayments Overpayments
                                                          Not Reported Not Reported
            Frame    Value of      Sample      Value of    Properly in   Properly in
Stratum      Size     Frame         Size       Sample        Sample        Sample
        1    1,590 $102,418,816        100     $9,955,950            11      $407,685
        2       34 $176,799,413         34   $176,799,413              4   $1,643,710
   Totals    1,624 $279,218,229        134   $186,755,363            15    $2,051,395


                          Estimated Medicaid Overpayments Not
                            Reported Properly on the CMS-64

                  (Limits Calculated for a 90-percent Confidence Interval)


                       Overall            Total Unallowable      Federal Share
            Lower Limit                           $2,340,182         $1,320,131
            Point Estimate                        $8,125,899         $4,582,618
            Upper Limit                          $13,911,617         $7,845,105
                                                                                                                               Page 1 of2


                          APPENDIX C; STATE AGENCY COMMENTS




                                                           S TATE 01' MICHIG AN

    JENNIFER M . GRANHOLM                DEPARTMENT OF COMMUNITY HEALTH                                         JANET OLSZEWSKI
            GOvt: RNOfl                                            L.... NSING                                      DIRECTOR




    July 28 , 2010



    Mr. James C. Cox 

    Reg ional Inspector General for Audit Services 

    Office of Inspector General 

    Office of Audit Services, Region V 

    233 North Michigan Avenue 

    Suite 1360 

    Chicago, IL 60601 


    Re: Report Number (A-05-09-00103)

    Dear Mr. Cox:

    Enclosed is the Michigan Department of Community Health's response to the draft report entitled
    "Review of Michigan's Reporting Fund Recoveries for State Medicaid Programs on the Form CMS-64
    for Federal Fiscal Years 2008 and 2009".

    We appreciate the opportunity to review and comment on the report before it is released . "you have




                     -
    any questions regarding this response, please refer them to Pam Myers at (517) 373-1508 .

    Sincerely,




ii    0." ,-< () L~< wJ {J,
 /'/Janet Olszewski
( / Director

    JO:kk

    Enclosure

    cc: 	 Steve Fitton 

          Mary Jane Russell 

          Pam Myers 

          Tim Becker 





                                CAPITOL VIEW BUILDING . 20 1 TOWN SEND STREET. LAN SING, M IC HIGAN -4 8913 

                                                      WWN.miChigal'l gov • (5,7 ) 373·374 0 

                                                                                                    Page 2 of2




                   Review of Michigan's Reporting Fund Recoveries for 

                      State Medicaid Programs on the Fonn CMS-64 

                             for Fiscal Years 2008 and 2009 

                                    (A-05-09-00 103) 


Finding
The State agency did not report all Medicaid overpayments in accordance with 'ederal requirements.
Of the 134 overpayments we reviewed, 15 were partially reported or not reported on the CMS-64. The
remaining 11 9 were reported correctly or were not required to be reported. The State agency also did
not report all Medicaid provider overpayments within the 60-day time requirement. For Federal fiscal
years 2008 and 2009, we estimated that the State agency did not report Medicaid overpayments
totaling $2,340, 182 ($1 ,320,131 Federal share) in accordance with Federal requirements.

The State agency did not properly repon these overpayments because it had not developed and
implemented internal controls to ensure that overpayments were reported on the CMS-64.

Recommendations
We recommend that the State agency:
   • 	 include unreported Medicaid overpayments of $2,340,182 on the CMS-64 and refund
       $1,320, 131 to the Federal Government and

   • 	 develop and implement internal controls to correctly report and refund the Federal share of
       identified Medicaid overpayments on the CMS-64.


DCH Response
The Department:
   • 	 has reported and refunded the Medicaid overpayments on the CMS-64 for the quarter ended
       December 31 , 2009. An additional $423,850 will be returned on the June 30, 20 10 report.

   • 	 concurs with the recommendation and will develop procedures to correctly report and refund
       the federal share of identified Medicaid overpayments on the CMS-64.                   With the
       implementation of the new Community Health Automated Medicaid Processing System
       (CHAMPS) in September 2009, for any Medicaid overpayment receivables that are 60 days
       old, the federal share is automatically returned on the CMS-64, regardless of collection status.
